HHS/OIG, Audit - "Review of Quality Improvement Organization in
Missouri," (A-07-06-01036)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Quality
Improvement Organization in Missouri," (A-07-06-01036)
June 11, 2007
Complete
Text of Report is available in PDF format (246 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Senate Finance Committee requested that the Office of
Inspector General assess the fiscal integrity of Medicare Quality Improvement
Organizations (QIO) with respect to six specified subject areas.  In Missouri,
Primaris was the QIO for the period February 1, 2003, through January 31, 2006.
The audit objective was to review the six fiscal integrity areas
requested by the Senate Finance Committee.
Of the $4.8 million of costs reviewed related
to the six fiscal integrity areas requested by the Senate Finance Committee, Primaris provided adequate documentation to support the costs claimed.
Accordingly, this report contains no recommendations.